No. ______

IN THE

Supreme Court of the United States
___________________________________________________________

DAVID KELSEY SPARRE,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

____________________________________________________________

On Petition for a Writ of Certiorari to the
Supreme Court of Florida
______________________________________________________________
PETITIONER’S APPENDIX
______________________________________________________________
THIS IS A CAPITAL CASE
STACY R. BIGGART
Counsel of Record
CANDACE RECHTMANN
Capital Collateral Regional Counsel –
Northern Region
1004 DeSoto Park Drive
Tallahassee, Florida 32301
(850) 487-0922
Stacy.Biggart@ccrc-north.org
Candace.Rechtmann@ccrc-north.org

INDEX TO APPENDIX
Exhibit 1 — Florida Supreme Court opinion below (December 19, 2019)……….…… 1
Exhibit 2 — Florida Supreme Court order on rehearing (February 26, 2020)……...33
Exhibit 3 — American Bar Association House of Delegates Resolution 111 (Adopted
Feb. 5, 2018……………………………………………………………………35

EXHIBIT 1

App. 001

Supreme Court of Florida
____________
No. SC18-1192
____________
DAVID KELSEY SPARRE,
Appellant,
vs.
STATE OF FLORIDA,
Appellee.
____________
No. SC19-389
____________
DAVID KELSEY SPARRE,
Petitioner,
vs.
MARK S. INCH, etc.,
Respondent.
December 19, 2019
PER CURIAM.
David Kelsey Sparre appeals the denial of his motion to vacate his
conviction of first-degree murder and sentence of death filed under Florida Rule of
Criminal Procedure 3.851 and petitions this Court for a writ of habeas corpus. We

App. 002

have jurisdiction. See art. V, § 3(b)(1), (9), Fla. Const. For the reasons below, we
affirm the denial of Sparre’s postconviction motion and deny his habeas petition.
I. BACKGROUND
The facts of Sparre’s case were fully set out in this Court’s decision on
direct appeal. See Sparre v. State, 164 So. 3d 1183, 1186-88 (Fla. 2015). In
summary, after meeting Tiara Pool on Craigslist, Sparre stabbed her to death in her
Jacksonville apartment and stole several items of her property, including her car.
Id. at 1186-87. At trial, the State argued that Sparre committed first-degree murder
under both premeditated and felony murder theories, with burglary as the
underlying felony. Sparre conceded that he killed the victim but argued that he had
“no prior plan to murder” her and thus had not committed premeditated murder, id.
at 1189, and he further argued that he had not committed the underlying burglary.
In addition to Sparre’s concession to killing the victim, both through his trial
counsel and through the admission of Sparre’s video-recorded interview with law
enforcement during which Sparre admitted to killing the victim with her kitchen
knife, id. at 1188, the evidence presented to Sparre’s guilt-phase jury included
testimony from Sparre’s former girlfriend that “prior to his arrest Sparre had
confessed to her that he had killed a black woman in the victim’s Jacksonville
apartment,” id. at 1189; testimony from the medical examiner that the victim “was
alive and conscious through at least 88 sharp-force injuries, which included thirty-

-2-

App. 003

nine defensive wounds,” id. at 1187; testimony from law enforcement “that the
crime scene was ‘cleaned’ to such an extent that virtually no evidence of [the
victim’s] assailant was recoverable,” id.; testimony from a DNA expert that
although “he was able to rule out ninety-nine percent of the world’s population . . .
Sparre and [the victim] were possible contributors to the mixture of DNA material
found on the murder weapon,” id.; and testimony that several items of the victim’s
property were missing, id. After hearing the evidence presented at trial, Sparre’s
jury found him guilty of first-degree murder, finding both that the killing was
premeditated and that it was done during the commission of a felony, namely
burglary. Id. at 1189.1
During the penalty phase, Sparre waived the presentation of substantial
mitigation evidence proffered by his defense counsel, and Sparre’s jury
unanimously recommended a death sentence. Id. at 1189-91. After holding a
Spencer v. State, 615 So. 2d 688 (Fla. 1993), hearing, at which Sparre again
waived the presentation of substantial mitigation proffered by defense counsel, the
trial court followed the jury’s recommendation and sentenced Sparre to death. 164

1. In finding Sparre guilty of first-degree murder, Sparre’s jury further
found that Sparre carried, displayed, used, threatened to use, or attempted to use a
weapon. Sparre, 164 So. 3d at 1189.

-3-

App. 004

So. 3d at 1191-93.2 We affirmed Sparre’s conviction and sentence on direct
appeal. Id. at 1202. 3
Thereafter, Sparre filed the motion for postconviction relief at issue in this
appeal. Following an evidentiary hearing on some of the claims, the circuit court
entered an order denying relief as to all claims. Sparre appeals the circuit court’s

2. “The trial court found two aggravating circumstances to which both were
assigned great weight: (1) HAC; and (2) the murder was committed during the
course of a burglary.” Sparre, 164 So. 3d at 1192. The trial court found and
assigned moderate weight to the statutory mitigating circumstance that “Sparre was
nineteen years old at the time of the murder” and also found and assigned weight to
thirteen nonstatutory mitigating circumstances as follows: “(1) Sparre accepts
responsibility for his actions (little weight); (2) Sparre has been neglected (some
weight); (3) Sparre suffers from emotional deprivation and was emotionally abused
(some weight); (4) Sparre was physically abused by his step-father and mother
(some weight); (5) Sparre lacks a good support system (some weight); (6) Sparre’s
father was absent from his life (some weight); (7) Sparre is good at fixing things
(slight weight); (8) Sparre dropped out of high school but obtained a GED (little
weight); (9) Sparre participated in ROTC in high school and was in the U.S.
military (slight weight); (10) Sparre is devoted to his grandmother (little weight);
(11) Sparre has a child (some weight); (12) Sparre loves his family (some weight);
and (13) Sparre’s family loves him (some weight).” Id. at 1192-93 & n.9.
3. Sparre raised the following claims on direct appeal: (1) “the trial court
erred by not calling its own witnesses who potentially had knowledge of mitigating
factors against the imposition of the death penalty”; (2) this Court should recede
from Hamblen v. State, 527 So. 2d 800 (Fla. 1988), which “subjects a trial court’s
judgment about whether to call its own mitigation witnesses or appoint special
mitigation counsel to an abuse of discretion standard on review,” Sparre, 164 So.
3d at 1199; and (3) Sparre’s sentence of death violates Ring v. Arizona, 536 U.S.
584 (2002). 164 So. 3d at 1185-86, 1199. This Court also reviewed the
sufficiency of the evidence supporting Sparre’s conviction for first-degree murder
under both premeditated and felony murder theories and the proportionality of his
death sentence. Id. at 1200-02.
-4-

App. 005

denial of his postconviction motion and also petitions this Court for a writ of
habeas corpus.
II. POSTCONVICTION APPEAL
A. Ineffective Assistance of Trial Counsel
Sparre first argues that trial counsel was ineffective (1) for failing to request
a continuance to investigate Sparre’s competency to waive the presentation of
mitigation to his penalty-phase jury; (2) for failing to file the defense sentencing
memorandum with the clerk of court; (3) for failing to impeach the trial testimony
of the medical examiner with his deposition testimony; (4) for failing to consult
with and retain a forensic pathologist; (5) for extensively attacking the victim
during closing argument and for failing to explain how the evidence supported
Sparre’s defense that he “snapped” and committed the killing in a frenzy, rather
than with premeditation; and (6) for failing to object to improper statements by the
prosecutor during the guilt- and penalty-phase closing arguments. Sparre further
argues that the cumulative effect of trial counsel’s errors entitles him to relief.
To prove a claim of ineffective assistance of counsel, a defendant must
establish two prongs, deficient performance and prejudice, both of which are
mixed questions of law and fact:
First, the defendant must show that counsel’s performance was
deficient. This requires showing that counsel made errors so serious
that counsel was not functioning as the “counsel” guaranteed the
defendant by the Sixth Amendment. Second, the defendant must
-5-

App. 006

show that the deficient performance prejudiced the defense. This
requires showing that counsel’s errors were so serious as to deprive
the defendant of a fair trial, a trial whose result is reliable.
Strickland v. Washington, 466 U.S. 668, 687 (1984); see also Bolin v. State, 41 So.
3d 151, 155 (Fla. 2010).
Regarding deficiency, there is a strong presumption that trial counsel’s
performance was not ineffective but rather was sound trial strategy, and the
defendant bears the burden to overcome it. Strickland, 466 U.S. at 690. A court
must consider “whether counsel’s assistance was reasonable considering all the
circumstances.” Strickland, 466 U.S. at 688. “[S]trategic decisions do not
constitute ineffective assistance of counsel if alternative courses have been
considered and rejected and counsel’s decision was reasonable under the norms of
professional conduct.” Darling v. State, 966 So. 2d 366, 382 (Fla. 2007) (quoting
Howell v. State, 877 So. 2d 697, 703 (Fla. 2004)).
Regarding the prejudice prong, “[t]he defendant must show that there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different,” where “[a] reasonable probability is a
probability sufficient to undermine confidence in the outcome.” Id.
The postconviction court’s factual findings are reviewed for competent,
substantial evidence, while its legal conclusions are reviewed de novo. Bolin, 41
So. 3d at 155. Further, “because the Strickland standard requires establishment of

-6-

App. 007

both prongs, when a defendant fails to make a showing as to one prong, it is not
necessary to delve into whether he has made a showing as to the other prong.”
Waterhouse v. State, 792 So. 2d 1176, 1182 (Fla. 2001). Where trial counsel is
deficient in more than one area, however, we must “consider the impact of these
errors cumulatively to determine whether [the defendant] has established
prejudice.” Parker v. State, 89 So. 3d 844, 867 (Fla. 2011).
(1) Continuance
Sparre first argues that trial counsel was ineffective for failing to request a
continuance to investigate Sparre’s competency to waive the presentation of
mitigation to his penalty-phase jury after Sparre disclosed that he had stopped
taking his prescribed antipsychotic medication. We affirm the denial of this claim.
Although due process requires that a criminal defendant be competent to
proceed at every material stage of a criminal proceeding, see generally Caraballo
v. State, 39 So. 3d 1234, 1252 (Fla. 2010), “not every manifestation of mental
illness demonstrates incompetence to stand trial; rather, the evidence must indicate
a present inability to assist counsel or understand the charges,” Card v. Singletary,
981 F.2d 481, 487 (11th Cir. 1992) (quoting United States ex rel. Foster v. De
Robertis, 741 F. 2d 1007, 1012 (7th Cir. 1984)). In Sparre’s case, competent,
substantial evidence supports the circuit court’s finding that trial counsel was not
deficient.

-7-

App. 008

This evidence includes the trial court’s finding, during the penalty-phase
waiver colloquy at which Sparre disclosed his medication stoppage, that Sparre
was “lucid” and “answered appropriately” when questioned about his desire to
waive mitigation. It also includes statements by trial counsel immediately prior to
the colloquy that counsel had “no reason to believe that there’s any incompetency
issue” and that Sparre had “responded properly to questions” posed by his defense
team and “articulated certain ideas for argument,” but had elected to waive
mitigation against the advice of counsel.4
Trial counsel’s testimony from the postconviction evidentiary hearing also
supports the circuit court’s finding that trial counsel was not deficient. This
includes testimony that the defense team had no concerns about Sparre’s
competency or any questions as to whether Sparre was validly waiving the
presentation of mitigation. To the contrary, trial counsel testified that Sparre “was
adamant” about not wanting mitigation presented on his behalf from the early
stages of the case, when he was taking his medication, meaning that Sparre’s desire
to waive “wasn’t last-minute,” and that “it seemed as if [Sparre] was making a

4. Similarly, in finding that Sparre had validly waived mitigation during the
Spencer hearing, the record shows that the trial court found that Sparre looked alert
and that nothing appeared to be impacting his ability to understand or to make a
decision.
-8-

App. 009

conscious decision that he wanted . . . the jury recommendation to come back
death.”
Moreover, the “doubts” as to Sparre’s competency raised by Sparre’s
postconviction expert, Dr. Harry Krop, were based on Sparre’s diagnosed
psychosis and Sparre’s self-reporting that he had stopped taking the medication
prescribed to treat it. However, Dr. Krop acknowledged that, based on Sparre’s
jail records and spotty medication-compliance history, it would be difficult to state
definitively whether Sparre was medicated on the day he waived mitigation. Dr.
Krop also testified that he was concerned—based on Sparre’s prior self-reporting
of hearing the voice of someone named “Tommy”—by Sparre’s statement during
the waiver colloquy that Sparre had discussed the waiver with himself in addition
to discussing it with his defense team. However, nothing in the record indicates
that Sparre equates himself with “Tommy” (rather, Dr. Krop testified that Sparre
refers to “Tommy” as his “friend”), that Sparre was hearing “Tommy’s” voice at
the time of his waiver, or that “Tommy” had pressured Sparre to waive mitigation.
To the contrary, the jail records from the day after the penalty-phase mitigation
waiver indicate that Sparre was not experiencing hallucinations.
Accordingly, because competent, substantial evidence supports the circuit
court’s finding that, under the totality of the circumstances of this case, a
reasonable trial counsel would not have had a reasonable ground to believe that

-9-

App. 010

Sparre was incompetent, we affirm the circuit court’s denial of relief. See Brown
v. State, 258 So. 3d 1201, 1206 (Fla. 2018) (“As long as the trial court’s findings
are supported by competent substantial evidence, ‘this Court will not substitute its
judgment for that of the trial court on questions of fact, likewise the credibility of
the witnesses as well as the weight to be given to the evidence by the trial court.’ ”)
(quoting Blanco v. State, 702 So. 2d 1250, 1252 (Fla. 1997))).
(2) Sentencing Memorandum
Sparre next argues that trial counsel was ineffective for failing to file the
defense sentencing memorandum with the clerk of court to preserve mitigating
evidence for Sparre’s direct appeal. This claim, which was not included in
Sparre’s postconviction motion, is not properly before this Court on appeal. See
State v. Morrison, 236 So. 3d 204, 223 (Fla. 2017) (holding claim not raised in
postconviction motion procedurally barred). Moreover, because trial counsel filed
the memorandum with the trial judge and because it is appellate counsel’s duty to
ensure that the record on appeal is complete, see Fla. R. App. P. 9.200(e), the crux
of this claim is ineffective assistance of appellate counsel, which is “not cognizable
in [a] postconviction motion[], and should be raised in a habeas petition.” Griffin
v. State, 866 So. 2d 1, 21 (Fla. 2003). Indeed, Sparre raises this claim in his habeas
petition, and we address its merits in that proper context, below.

- 10 -

App. 011

(3) Medical Examiner
Next, Sparre argues that trial counsel was ineffective for failing to impeach
the trial testimony of the medical examiner, Dr. Jesse Giles, with his deposition
testimony. Specifically, Sparre argues that trial counsel should have impeached
Dr. Giles’s trial testimony that the evidence is inconsistent with a frenzy due to the
number and pattern of the wounds with Dr. Giles’s deposition testimony that
“there’s no way to know . . . whether this is all within a very short time of frenzy.”
We affirm the circuit court’s denial because Sparre failed to preserve this claim,
which would nevertheless fail on the merits because trial counsel was not deficient.
To preserve an issue for appellate review, a litigant must present the issue to
the trial court in a timely, specific manner and obtain a ruling. See Corona v.
State, 64 So. 3d 1232, 1242 (Fla. 2011) (discussing the requirements of timeliness
and specificity); Rhodes v. State, 986 So. 2d 501, 513 (Fla. 2008) (“To be
preserved, the issue or legal argument must be raised and ruled on by the trial
court.”). This rule is based on fairness, State v. Jones, 377 So. 2d 1163, 1164 (Fla.
1979), and it serves the additional purposes of ensuring that the trial court has been
apprised of the putative error and allowing for “intelligent review on appeal,”
Jackson v. State, 451 So. 2d 458, 461 (Fla. 1984) (quoting Castor v. State, 365 So.
2d 701, 703 (Fla. 1978)).

- 11 -

App. 012

The record in this case establishes that Sparre did not timely present the
specific issue raised on appeal to the trial court. Although Sparre mentioned the
deposition and the concept of impeachment in claim 11 of his rule 3.851 motion,
and although he moved the deposition into evidence at the postconviction
evidentiary hearing, he did not point out the specific deposition testimony at issue
until more than two months after the evidentiary hearing, when he filed his written
closing arguments. By then, it was too late for the State to respond. The State had
already filed its post-hearing memorandum; the parties’ written closing arguments
were due on the same day; and no answer or reply to written closing arguments is
allowed under the rules of criminal procedure. See Fla. R. Crim. P. 3.851(f)(5)(E).
In light of the preservation rule’s timeliness requirement and goal of fairness, we
hold that Sparre’s challenge to trial counsel’s failure to impeach Dr. Giles is not
preserved for appeal.
But even if Sparre had preserved this claim, he would not be entitled to relief
because trial counsel was not deficient. Both at trial and during his deposition, Dr.
Giles acknowledged that there was no way to know how long the attack took, but
ultimately concluded that the attack would have taken at least “several minutes,” as
he said in his deposition, or “some minutes,” as he testified at trial. Failing to
impeach Dr. Giles with deposition testimony that, in context, was consistent with
his trial testimony, did not fall “below an objective standard of reasonableness”

- 12 -

App. 013

under the “prevailing professional norms,” Strickland, 466 U.S. at 688. Thus, even
if Sparre had preserved this claim, he would not be entitled to relief because he
cannot prove deficiency.
(4) Forensic Pathologist
In his fourth issue on appeal, Sparre argues that trial counsel was ineffective
for failing to consult with and retain a forensic pathologist to testify in support of
the theory that Sparre killed the victim in a frenzied state and, therefore, did not
commit premeditated murder. Because competent, substantial evidence supports
the circuit court’s finding that trial counsel’s decision was the result of reasonable
trial strategy, we disagree.
This Court has identified three factors that must be considered when
determining “whether trial counsel’s decision not to call an expert to rebut the
State’s expert constitutes deficient performance”:
First among these are the attorney’s reasons for performing in an
allegedly deficient manner, including consideration of the attorney’s
tactical decisions. A second factor is whether cross-examination of
the State’s expert brings out the expert’s weaknesses and whether
those weaknesses are argued to the jury. The final factor is whether a
defendant can show that an expert was available at the time of trial to
rebut the State’s expert.
Allen v. State, 261 So. 3d 1255, 1283 (Fla. 2019) (citations omitted) (quoting
State v. Riechmann, 777 So. 2d 342, 354 (Fla. 2000)).

- 13 -

App. 014

Here, competent, substantial evidence as to the relevant factors supports the
circuit court’s determination that trial counsel made a reasonable strategy decision.
More specifically, trial counsel testified that retaining a forensic pathologist would
have allowed the State to emphasize the gruesome details of Sparre’s attack on the
victim. Additionally, trial counsel was able to cross-examine Dr. Giles concerning
the subject matter that the defense expert proposed by postconviction counsel, Dr.
John Marraccini, would have addressed. Specifically, the defense’s theory that
Sparre committed the murder in a frenzied state depended on the allegation that all
the wounds could have been inflicted within a short period of time, such as two
minutes. Although Dr. Giles opined that the attack would have taken at least
several minutes, on cross-examination, Dr. Giles conceded that he could give “just
an estimate at best.” Although the record shows that Dr. Marraccini was available
at the time of trial, at the postconviction evidentiary hearing, Dr. Marraccini agreed
with the majority of the trial testimony presented by the State’s expert, Dr. Giles—
specifically, the description of the victim’s wounds, the cause of death, the order in
which the victim’s neck wound was inflicted as compared to her other wounds, the
effect of the neck wound, and the fact that the victim lived through most of the
injuries. Moreover, although Dr. Marraccini disagreed with Dr. Giles on the
duration of the attack—a point significant to Sparre’s theory that the killing was
not premeditated—neither expert could testify with certainty as to the length of the

- 14 -

App. 015

attack, and even Dr. Marraccini conceded on cross-examination that the attack
could have taken longer than the two-minute period in which he opined on direct
examination that all of the victim’s wounds could have been inflicted. In sum, the
record shows that if trial counsel had consulted and retained Dr. Marraccini to
testify at trial, the State would have been able to emphasize the gruesome nature of
the murder, and Dr. Marraccini would not have been able to fully rebut the
testimony of Dr. Giles, thus still leaving the jury without definitive expert
testimony that the killing was frenzied. Accordingly, we affirm the circuit court’s
finding that trial counsel made a reasonable strategy decision and was, therefore,
not deficient for failing to consult with or retain a forensic pathologist. See Allen,
261 So. 3d at 1284.
(5) Defense Guilt-Phase Closing Argument
Sparre next argues that trial counsel was ineffective for extensively attacking
the victim during closing argument and for failing to explain how the evidence
supported Sparre’s defense that he “snapped” and committed the killing in a
frenzy, rather than with premeditation. We agree that trial counsel’s closing
argument was deficient but affirm the circuit court’s denial of relief because Sparre
has not established prejudice.
As conveyed during trial counsel’s opening statement, Sparre argued that the
killing was not premeditated because, just before stabbing the victim, he learned

- 15 -

App. 016

certain information about her that contradicted the victim’s prior representations to
Sparre. Specifically, Sparre’s counsel claimed that, at that moment, Sparre learned
that the victim was married, that her husband was a sailor in the United States
Navy and out at sea, and that her children were staying with their grandmother.
Trial counsel alleged that these revelations triggered memories and feelings of
turmoil, pain, and neglect from Sparre’s own life experiences and caused Sparre to
snap and kill the victim.
During Sparre’s closing argument, however, trial counsel’s main approach
was to comment negatively on the victim’s lifestyle, history, and representations of
herself online, without explaining how these comments related to the evidence
presented at trial that, arguably, supported the defense theory of a frenzied killing.
Primarily, this evidence included Sparre’s statements to law enforcement from
which trial counsel could have drawn parallels between Sparre’s life, including the
neglect Sparre experienced as a child and his perception that his mother chose a
man over him before ultimately abandoning him to a boy’s home, and what he
might have envisioned to be the life of the victim’s children based on the
information he had about her. Instead of tying this evidence into the theme
announced in the opening statement, trial counsel devoted nearly half of his closing
argument to simply attacking the victim, including referencing her associations
with other men, her Craigslist postings, and her concerns about possibly having a

- 16 -

App. 017

mental illness. Because trial counsel failed to tie any of his statements about the
victim into the defense theory that the killing was frenzied and, in the process, left
unargued evidence that could have potentially supported this defense, we hold that
trial counsel delivered a deficient closing argument. Cf. Jackson v. State, 147 So.
3d 469, 487 (Fla. 2014) (rejecting claim that trial counsel’s closing argument was
deficient where trial counsel’s “logical” and “coherent” argument stressed the
victim’s risky lifestyle in the context of arguing that numerous people other than
the defendant could have caused the victim’s death).
However, because there is no reasonable probability that trial counsel’s
deficient performance affected the jury’s verdict finding Sparre guilty of
first-degree murder, there is no prejudice. As an initial matter, Sparre’s defense
that the killing was frenzied is not a defense to first-degree felony murder, of which
Sparre’s jury also found him guilty. See Sparre, 164 So. 3d at 1201 (“Sparre
exhibited his intent to commit burglary when he remained in Pool’s residence and
committed a forcible felony against her (murder).”).
Moreover, there is no reasonable probability that trial counsel’s deficient
closing argument affected the jury’s verdict as to first-degree premeditated murder
either. Although the jury heard Sparre’s statements to law enforcement, including
that he was physically abused and neglected as a child and through his
adolescence, and that he experienced a blackout when he murdered the victim,

- 17 -

App. 018

Sparre did not tell law enforcement that he snapped in reaction to something the
victim said. Moreover, Sparre’s defense that the killing was frenzied fails to
account for how he came into possession of the knife, which belonged to the
victim’s kitchen knife set. Irrespective of any intent that could have been formed
in the length of time required to inflict at least 88 “sharp-force injuries,” the record
shows that Sparre had to have either acquired the murder weapon before the victim
said something that caused him to snap or walked out of the bedroom to the
kitchen to retrieve it after she said what she allegedly said. Either scenario
indicates premeditation and contradicts Sparre’s theory.
Accordingly, even if trial counsel had made a more coherent closing
argument connecting information about the victim to the defense theory that Sparre
killed her in a frenzy, there is no reasonable probability that the jury would have
acquitted Sparre of first-degree murder—under either the premeditated or
felony-murder theory—and convicted him of second-degree murder instead.
Therefore, because Sparre has failed to establish prejudice, we affirm the circuit
court’s denial of this claim. See Strickland, 466 U.S. at 694.
(6) Prosecutor’s Statements
Sparre next argues that trial counsel was ineffective for failing to object to
several allegedly improper comments by the prosecutor during the State’s guilt-

- 18 -

App. 019

and penalty-phase closing arguments.5 With respect to all but two of the
comments, we affirm the circuit court’s denial of relief without discussion, other
than to note that each of these subclaims was properly denied for one or both of the
following reasons: (1) the comment at issue was not improper as a matter of law
and counsel cannot be deficient for failing to raise a meritless argument, see
Valentine v. State, 98 So. 3d 44, 55 (Fla. 2012), or (2) the trial court correctly ruled
that Sparre failed to meet his burden to present evidence in support of the claim,
see Ferrell v. State, 918 So. 2d 163, 173-74 (Fla. 2005), where postconviction
counsel did not specifically question trial counsel about the comment at issue and
trial counsel testified generally that they would have objected if they had found the
comments improper and that sometimes objecting to an improper comment is more
prejudicial to the defendant than helpful.
We disagree, however, with the circuit court’s ruling that trial counsel was
not deficient for failing to object to the prosecutor’s (1) guilt-phase closing
arguments that crossed the line into misrepresenting and mocking Sparre’s defense

5. Sparre argues that the prosecutor made the following improper arguments
to which trial counsel was ineffective for failing to object: (1) alleged
misstatements of the law pertaining to first- and second-degree murder; (2) alleged
inflammatory statements; (3) alleged improper vouching for the victim’s
credibility; (4) alleged statements arguing facts not in evidence; (5) statements
allegedly denigrating the defense theory that the killing was not premeditated; (6)
statements improperly arguing aggravation during the guilt phase; and (7)
statements improperly invoking the State’s authority in arguing that the jury should
recommend a death sentence because the State was seeking the death penalty.
- 19 -

App. 020

that the killing was frenzied rather than premeditated; and (2) penalty-phase
closing arguments that crossed the line into denigrating Sparre’s proposed
mitigating circumstance that he was under the influence of extreme mental or
emotional disturbance, as evidenced by the number of wounds that Sparre inflicted
on the victim, which Sparre argued demonstrated the frenzied nature of the killing.
See Jackson v. State, 147 So. 3d 469, 486 (Fla. 2014) (“[A] prosecutor may not
ridicule a defendant or his theory of defense.” (quoting Servis v. State, 855 So. 2d
1190, 1194 (Fla. 5th DCA 2003))); see also Delhall v. State, 95 So. 3d 134, 167-68
(Fla. 2012) (“This Court has long recognized that a prosecutor cannot improperly
denigrate mitigation during a closing argument.” (quoting Williamson v. State, 994
So. 2d 1000, 1014 (Fla. 2008))).
Specifically, during the guilt-phase closing argument, the prosecutor crossed
the line into misrepresenting and then mocking Sparre’s defense by, for example,
suggesting that Sparre’s rebuttal to the premeditation element of first-degree
murder was a claim that he was “kind of just having fun with her” and was just
committing a “thrill kill and then he just kind of got a little carried away” and “the
knife just kept slipping.” These claims, of course, were not the defense Sparre
asserted. Similarly, during the penalty-phase closing argument, the prosecutor
crossed the line into denigrating Sparre’s proposed mitigating circumstance that he
was under the influence of extreme mental or emotional disturbance as

- 20 -

App. 021

demonstrated by the frenzied nature of the killing by, for example, arguing that in
proposing this mitigating circumstance, Sparre was apparently asking the jury to
accept that he had “decided just to kill [the victim] for the heck of it, for his
enjoyment” because “he was very emotional, disturbed, distraught because his
grandmother was having surgery at the hospital,” when in fact Sparre did not argue
that he killed the victim for enjoyment, that doing so would somehow establish the
mitigator in question, or that the alleged frenzy was triggered by an emotional
response to his grandmother’s health situation.
Nevertheless, we affirm the circuit court’s denial of relief because Sparre
cannot establish prejudice as a result of trial counsel’s deficiency in failing to
object to these improper arguments. There is no reasonable probability that
Sparre’s trial counsel’s failure to object during the guilt phase affected the jury’s
verdict of first-degree murder because, as explained above with regard to the
deficiency in defense counsel’s closing argument, Sparre’s frenzy theory did not
confront the State’s felony-murder theory, which the jury accepted, and did not
account for the substantial evidence of premeditation. Likewise, there is no
reasonable probability that the deficiency affected the jury’s sentencing
recommendation or the trial court’s rejection of Sparre’s proposed mitigating
circumstance that Sparre was under the influence of extreme mental or emotional

- 21 -

App. 022

disturbance. Accordingly, because Sparre cannot establish prejudice, we affirm the
circuit court’s denial of relief. See Strickland, 466 U.S. at 694.
(7) Cumulative Error
Sparre next argues that the cumulative effect of trial counsel’s errors entitles
him to relief. Because we found trial counsel deficient in two respects—for failing
to deliver a coherent guilt-phase closing argument as to Sparre’s defense that the
killing was frenzied and for failing to object to closing arguments by the prosecutor
that crossed the line into denigrating this defense and the proposed mitigator of
extreme mental or emotional disturbance as demonstrated by the frenzied nature of
the killing—we must analyze whether these two deficiencies, taken together, are
sufficient to establish the requisite prejudice. See Parker, 89 So. 3d at 867. They
are not. There is no reasonable probability that, taken together, these deficiencies
affected the first-degree murder verdict or the sentence of death on the record
before us. Accordingly, we affirm the denial of Sparre’s cumulative error claim.
B. Other Claims
Sparre also argues that the postconviction court erred in three other respects,
namely (1) in denying Sparre’s claim that the categorical Eighth Amendment bar
against executing juvenile offenders established by Roper v. Simmons, 543 U.S.
551 (2005), should be extended to Sparre, who was 19 years old at the time of the

- 22 -

App. 023

murder; (2) in denying Sparre relief from his death sentence pursuant to Hurst 6;
and (3) in denying Sparre’s motion to amend his postconviction motion to add a
claim that trial counsel was ineffective for failing to file the defense sentencing
memorandum.
As to the first two claims, our precedent plainly forecloses relief on the
merits of Sparre’s Roper claim—even assuming it is not procedurally barred
because Sparre failed to raise it on direct appeal. See Branch v. State, 236 So. 3d
981, 987 (Fla. 2018). Likewise, our precedent forecloses Sparre’s Hurst claim.
See Philmore v. State, 234 So. 3d 567, 568 (Fla. 2018) (citing Davis v. State, 207
So. 3d 142, 173-75 (Fla. 2016)).
As to the third claim, we find no abuse of discretion in the circuit court’s
order denying Sparre’s motion to amend. See Marek v. State, 8 So. 3d 1123, 1131
(Fla. 2009) (reviewing denial of motion to amend rule 3.851 motion for abuse of
discretion). The crux of the claim that Sparre sought to add to his rule 3.851
motion was ineffective assistance of counsel based on the failure to perfect the
record on appeal with the defense sentencing memorandum. However, as
explained above, it was appellate counsel’s duty to ensure that the memorandum—
which trial counsel filed with the trial court—was included in the record on appeal.

6. Hurst v. Florida, 136 S. Ct. 616 (2016); Hurst v. State (Hurst), 202 So.
3d 40 (Fla. 2016).

- 23 -

App. 024

See Fla. R. App. P. 9.200(e). Therefore, appellate counsel’s deficiency in failing to
do so was properly raised in Sparre’s habeas petition as a claim of ineffective
assistance of appellate counsel, not in a rule 3.851 motion under the guise of a
claim of ineffective assistance of trial counsel. Accordingly, the circuit court did
not abuse its discretion in denying Sparre’s motion to amend his postconviction
motion to include this claim.
III. HABEAS PETITION
In his habeas petition, Sparre argues that appellate counsel was ineffective in
three respects, namely (1) for failing to supplement the record on appeal with the
defense sentencing memorandum; (2) for failing to argue fundamental error based
on prosecutorial misconduct; and (3) for failing to challenge the admission of
certain autopsy photographs.
This Court has explained the standard for reviewing claims of ineffective
assistance of appellate counsel, which are properly presented in a petition for a writ
of habeas corpus, as follows:
“The standard of review for ineffective appellate counsel claims
mirrors the Strickland standard for ineffective assistance of trial
counsel.” [Wickham v. State, 124 So. 3d 841, 863 (Fla. 2013).]
Specifically, to be entitled to habeas relief on the basis of ineffective
assistance of appellate counsel, the defendant must establish
[first, that] the alleged omissions are of such magnitude
as to constitute a serious error or substantial deficiency
falling measurably outside the range of professionally
acceptable performance and, second, [that] the deficiency
- 24 -

App. 025

in performance compromised the appellate process to
such a degree as to undermine confidence in the
correctness of the result.
Bradley v. State, 33 So. 3d 664, 684 (Fla. 2010) (quoting Pope v.
Wainwright, 496 So. 2d 798, 800 (Fla. 1986)). Further, “appellate
counsel cannot be deemed ineffective for failing to raise
nonmeritorious claims.” Valle v. Moore, 837 So. 2d 905, 908 (Fla.
2002).
England v. State, 151 So. 3d 1132, 1140 (Fla. 2014).
(1) Sentencing Memorandum
As to Sparre’s first habeas claim, we agree that appellate counsel was
deficient for failing to supplement the record on appeal with the defense sentencing
memorandum, which trial counsel filed with the trial court but which (apparently)
was not filed with the clerk of court and therefore not included in the record on
appeal. Appellate counsel was deficient for failing to ensure that the record on
appeal was complete. See Fla. R. App. P. 9.200(e) (“The burden to ensure that the
record is prepared and transmitted in accordance with these rules shall be on the
petitioner or the appellant.”). However, we cannot agree that the deficiency
“compromised the appellate process to such a degree as to undermine confidence
in the correctness of the result.” England, 151 So. 3d at 1140 (quoting Bradley, 33
So. 3d at 684). Rather, the record contains a proffer by defense counsel that is
similar in all material respects to the mitigating evidence addressed in the defense
sentencing memorandum. Thus, this Court’s review of Sparre’s death sentence on

- 25 -

App. 026

direct appeal was not affected in any way, let alone compromised to such a degree
as to undermine our confidence in the correctness of the result. Accordingly, we
deny relief as to this claim.
(2) Prosecutorial Misconduct
Sparre next argues that appellate counsel was ineffective for failing to raise
several claims of fundamental error predicated on alleged prosecutorial misconduct
in the State’s guilt-phase closing arguments and as a result of the State’s failure to
correct certain alleged deficiencies in the presentence investigation (PSI) report
regarding available mitigation. We disagree.
Regarding the State’s guilt-phase closing arguments, in light of our holding
that Sparre was not prejudiced by trial counsel’s failure to object to the arguments
we found improperly denigrated Sparre’s defense theory (and proposed mitigation
based on that theory), it necessarily follows that had appellate counsel raised this
unpreserved error on direct appeal, counsel would not have been able to make the
more exacting showing required to establish the error was fundamental. See State
v. Spencer, 216 So. 3d 481, 492 (Fla. 2017). Accordingly, because “appellate
counsel cannot be deemed ineffective for failing to raise . . . issues that were not
properly raised in the trial court and are not fundamental error,” Serrano v. State,
225 So. 3d 737, 757 (Fla. 2017), Sparre is not entitled to relief.

- 26 -

App. 027

Nor is Sparre entitled to relief on his claim concerning the PSI report. On
direct appeal, this Court held that the PSI report complied with the requirement of
Muhammad v. State, 782 So. 2d 343, 363-64 (Fla. 2001), to be a comprehensive
document. Sparre, 164 So. 3d at 1195. In so doing, we observed that “neither
party raised any objection on the record or otherwise informed the trial court that
the PSI report filed is inadequate.” Id. Sparre now contends that appellate counsel
should have argued on direct appeal that the prosecutor committed misconduct
amounting to fundamental error by failing to alert the trial court to unpresented
mitigation evidence during the Spencer hearing and further arguing that Sparre
offered no expert testimony to establish mental health mitigation despite knowing
such evidence existed. However, Sparre does not allege that the State possessed
any mitigation other than that contained in the detailed proffers that the defense
team presented to the trial court when Sparre waived the presentation of mitigation
during the penalty phase and at the Spencer hearing. Thus, this claim appears to be
an improper attempt to relitigate the merits of an issue—the PSI report’s
compliance with Muhammad—raised and decided against Sparre on direct appeal.
See Deparvine v. State, 146 So. 3d 1071, 1108 (Fla. 2014) (“[H]abeas corpus ‘is
not a second appeal and cannot be used to litigate or relitigate issues which could
have been . . . or were raised on direct appeal.’ ” (quoting Breedlove v. Singletary,
595 So. 2d 8, 10 (Fla. 1992))). But even if it is not, because all the relevant

- 27 -

App. 028

mitigation was before the trial court, if appellate counsel had raised this argument
on direct appeal, counsel would not have been able to establish that the alleged
error was fundamental. Accordingly, Sparre is not entitled to habeas relief. See
Serrano, 225 So. 3d at 757.
(3) Autopsy Photographs
In the last claim of his habeas petition, Sparre argues that appellate counsel
was ineffective for failing to argue on direct appeal that the trial court abused its
discretion in admitting 28 of the 35 autopsy photographs admitted during the guilt
phase. We disagree.
The general standard governing the admission of evidence over an objection
that the evidence is overly prejudicial or cumulative is that “[r]elevant evidence is
inadmissible if its probative value is substantially outweighed by the danger of
unfair prejudice, confusion of issues, misleading the jury, or needless presentation
of cumulative evidence.” § 90.403, Fla. Stat. (2011). We have explained that the
admission, over an objection based on this rule, of “photographic evidence of a
murder victim is within the discretion of the trial court, and its ruling will not be
disturbed on appeal absent a clear showing of abuse of that discretion.” Rodriguez
v. State, 919 So. 2d 1252, 1286 (Fla. 2005). Autopsy photographs can be relevant
to “explain a medical examiner’s testimony [and] to show the manner of death
[and] the location of wounds,” Floyd v. State, 808 So. 2d 175, 184 (Fla. 2002)

- 28 -

App. 029

(quoting Larkins v. State, 655 So. 2d 95, 98 (Fla. 1995)), or more generally, “to
show the circumstances of the crime and the nature and extent of the victim’s
injuries,” id. We have recognized that a trial court should limit the number of
gruesome photographs shown to the jury, id., so that unnecessarily repetitive
photos are not admitted, see Straight v. State, 397 So. 2d 903, 907 (Fla. 1981)
(discussing Young v. State, 234 So. 2d 341 (Fla. 1970), where this Court found
prejudicial error in the admission of 45 autopsy photographs, including 25
depicting the victim’s partially decomposed body), while also recognizing that
each case is different and the number of photographs admitted is not dispositive.
See Orme v. State, 896 So. 2d 725, 740 (Fla. 2005) (finding no abuse of discretion
in the admission of allegedly gruesome photographs even though there were 43 of
them).
Here, the trial court admitted 35 photographs. However, because Sparre
inflicted approximately 88 wounds on the victim, her injuries could not be fully
understood through only a few photographs. Although some of the injuries appear
in multiple photographs from different angles, the record shows that the trial court
attempted to avoid unnecessary duplication of gruesome images. In some cases,
injuries were shown more than once from different angles to provide a fuller
understanding of the extent and nature of the injuries. In other cases, injuries were
shown more than once because they appear in the periphery of a photograph

- 29 -

App. 030

intended to depict another injury. Also, the trial court admitted some pictures
showing broader views so that the patterns of the injuries could be understood,
while admitting closer up views of some of the same injuries so that the extent of
those injuries could be understood. The photographs provided a much clearer
understanding of the victim’s injuries than what could have been accomplished
through the medical examiner’s testimony alone, and for this reason, were
probative of the determination of whether this murder was premeditated. It was
within the trial court’s discretion to admit each of the photographs, as their
probative value was not substantially outweighed by the danger of unfair prejudice.
See § 90.403, Fla. Stat.; see also Rodriguez, 919 So. 2d at1286.
Moreover, following a thorough review of the 35 photographs, there are only
three that even arguably should have been excluded as cumulative—an extra
picture of each of the victim’s palms and a close-up of the right side of the victim’s
face that is potentially duplicative of another close-up of the same side of the
victim’s face, although even this picture was taken from a slightly different angle.
Nevertheless, because there is no reasonable possibility that the admission of these
photographs contributed to the conviction in any way that the remaining
photographs would not have, any error in their admission was harmless beyond a
reasonable doubt. See State v. DiGuilio, 491 So. 2d 1129, 1135 (Fla. 1986)
(explaining that error is harmless if “there is no reasonable possibility that [it]

- 30 -

App. 031

contributed to the conviction”). Because, to the extent any error occurred, it was
harmless and therefore would not have entitled Sparre to relief, appellate counsel
was not ineffective for failing to raise this meritless claim on direct appeal. See
Valle, 837 So. 2d at 908. Accordingly, Sparre is not entitled to habeas relief.
IV. CONCLUSION
For the foregoing reasons, we affirm the denial of Sparre’s postconviction
motion and deny his habeas petition.
It is so ordered.
CANADY, C.J., and POLSTON, LABARGA, LAWSON, and MUÑIZ, JJ.,
concur.
NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING MOTION AND,
IF FILED, DETERMINED.
An Appeal from the Circuit Court in and for Duval County,
Elizabeth Anne Senterfitt, Judge - Case No. 162010CF008424AXXXMA
And an Original Proceeding – Habeas Corpus
Robert S. Friedman, Capital Collateral Regional Counsel, Stacy R. Biggart,
Assistant Capital Collateral Regional Counsel, Northern Region, Tallahassee,
Florida,
for Appellant
Ashley Moody, Attorney General, and Janine D. Robinson, Assistant Attorney
General, Tallahassee, Florida,
for Appellee

- 31 -

App. 032

EXHIBIT 2

App. 033

Supreme Court of Florida
WEDNESDAY, FEBRUARY 26, 2020
CASE NOS.: SC18-1192 & SC19-389
Lower Tribunal No(s).:
162010CF008424AXXXMA
DAVID KELSEY SPARRE

vs.

STATE OF FLORIDA

DAVID KELSEY SPARRE

vs.

MARK S. INCH, ETC.

Appellant/Petitioner

Appellee/Respondent

Appellant/Petitioner’s Motion for Rehearing is hereby denied.
CANADY, C.J., and POLSTON, LABARGA, LAWSON, and MUÑIZ, JJ.,
concur.
A True Copy
Test:

kc
Served:
JANINE D. ROBINSON
STACY R. BIGGART
MATLETHA BENNETTE
BERNARDO ENRIQUE DE LA RIONDA
HON. MARK H. MAHON, CHIEF JUDGE
HON. ELIZABETH ANNE SENTERFITT, JUDGE
HON. RONNIE FUSSELL, CLERK

App. 034

EXHIBIT 3

App. 035

111

ADOPTED
AMERICAN BAR ASSOCIATION
DEATH PENALTY DUE PROCESS REVIEW PROJECT
SECTION OF CIVIL RIGHTS AND SOCIAL JUSTICE
REPORT TO THE HOUSE OF DELEGATES
RESOLUTION
1
2
3
4

RESOLVED, That the American Bar Association, without taking a position supporting or
opposing the death penalty, urges each jurisdiction that imposes capital punishment to
prohibit the imposition of a death sentence on or execution of any individual who was 21
years old or younger at the time of the offense.

App. 036

111
REPORT
Introduction
The American Bar Association (ABA) has long examined the important
issue of the death penalty and has sought to ensure that capital punishment is
applied fairly, accurately, with meaningful due process, and only on the most
deserving individuals. To that end, the ABA has taken positions on a variety of
aspects of the administration of capital punishment, including how the law treats
particularly vulnerable defendants or those with disabilities. In 1983, the ABA
became one of the first organizations to call for an end of using the death penalty
for individuals under the age of 18. 1 In 1997, the ABA called for a suspension of
executions until states and the federal government improved several aspects of
their administration of capital punishment, including removing juveniles from
eligibility. 2
Now, more than 35 years since the ABA first opposed the execution of
juvenile offenders, there is a growing medical consensus that key areas of the
brain relevant to decision-making and judgment continue to develop into the early
twenties. With this has come a corresponding public understanding that our
criminal justice system should also evolve in how it treats late adolescents
(individuals age 18 to 21 years old), ranging from their access to juvenile court
alternatives to eligibility for the death penalty. In light of this evolution of both the
scientific and legal understanding surrounding young criminal defendants and
broader changes to the death penalty landscape, it is now time for the ABA to
revise its dated position and support the exclusion of individuals who were 21
years old or younger at the time of their crime.
The ABA has been – and should continue to be – a leader in supporting
developmentally appropriate and evidence-based solutions for the treatment of
young people in our criminal justice system, including with respect to the
imposition of the death penalty. In 2004, the ABA filed an amicus brief in Roper v.
Simmons, in which the U.S. Supreme Court held that the Eighth Amendment
prohibited the imposition of the death penalty on individuals below the age of 18
at the time of their crime. 3 It also filed an amicus brief in 2012 in Miller v.
Alabama, concerning the constitutionality of mandatory life without parole
sentences for juveniles convicted of homicides. 4 The ABA’s brief in Roper
1

ABA House of Delegates Recommendation 117A, (adopted Aug. 1983),
http://www.americanbar.org/content/dam/aba/migrated/2011_build/death_penalty_moratorium/juv
enile_offenders_death_penalty0883.authcheckdam.pdf.
2 ABA House of Delegates Recommendation 107 (adopted Feb. 1997),
https://www.americanbar.org/content/dam/aba/migrated/2011_build/death_penalty_moratorium/a
ba_policy_consistency97.authcheckdam.pdf.
3 Brief for the ABA as Amicus Curiae Supporting Respondent, Roper v. Simmons, 543 U.S. 551
(2005).
4 Brief for the ABA as Amicus Curiae Supporting Petitioners, Miller v. Alabama, 567 U.S. 460
(2012).

App. 037

111
emphasized our long-standing position that juvenile offenders do not possess the
heightened moral culpability that justifies the death penalty. 5 It also demonstrated
that under the “evolving standards of decency” test that governs the Eighth
Amendment, over 50 percent of death penalty states had already rejected death
as an appropriate punishment for individuals who committed their crimes under
the age of 18. 6 In Miller, the ABA stressed that mandatory life without parole
sentences for juveniles, even in homicide cases, were categorically
unconstitutional because “[m]aturity can lead to that considered reflection which
is the foundation for remorse, renewal and rehabilitation.” 7
Not only has the U.S. Supreme Court held that there is a difference in
levels of criminal culpability between juveniles and adults generally, 8 but the
landscape of the American death penalty has changed since 1983. Fifty-two out
of 53 U.S. jurisdictions now have a life without parole (LWOP) option, either by
statute or practice; 9 and the overall national decline in new death sentences
corresponds with an increase in LWOP sentences in the last two decades. 10 In
2016, 31 individuals received death sentences, 11 and only two of those
individuals were under the age of 21 at the time of their crimes. 12 As of the date
of this writing, 23 individuals had been executed in 2017, further reflecting a
national decline in the imposition of capital punishment. 13 The U.S. Supreme
Court has also recognized that the Eighth Amendment’s evolving standards of
decency has made other groups categorically ineligible for the death penalty –
most notably individuals with intellectual disability. 14
5

Brief for the ABA as Amicus Curiae Supporting Respondent at 5-11, Roper v. Simmons, 543
U.S. 551 (2005).
6 Brief for the ABA as Amicus Curiae Supporting Respondent at 18, Roper v. Simmons, 543 U.S.
551 (2005).
7 Brief for the ABA as Amicus Curiae Supporting Petitioners at 12, Miller v. Alabama, 567 U.S.
460 (2012) (citing Graham v. Florida, 560 U.S. 48, 79 (2010)).
8 See, e.g., Miller v. Alabama, 567 U.S. 460, 474 (2012); Graham v. Florida , 560 U.S. 48, 50, 76
(2010); Roper v. Simmons, 543 U.S. 551, 553 (2005).
9 See Life Without Parole, DEATH PENALTY INFORMATION CTR., https://deathpenaltyinfo.org/lifewithout-parole (last visited Sept. 28, 2017).
10 Notes, A Matter of Life and Death: The Effect of Life-Without-Parole Statutes on Capital
Punishment, 119 Harv. L. Rev. 1838, 1845- 47 (2006).
11 Facts about the Death Penalty, DEATH PENALTY INFORMATION CTR.,
https://deathpenaltyinfo.org/documents/FactSheet.pdf (last visited Nov. 7, 2017).
12 Damantae Graham was under the age of 19 at the time of his crime. See Jen Steer, Man
Sentenced to Death in Murder of Kent State Student, FOX 8 (Nov. 15, 2016),
http://fox8.com/2016/11/15/man-sentenced-to-death-in-murder-of-kent-state-student. Justice
Jerrell Knight was under the age of 21 at the time of his crime. See Natalie Wade, Dothan Police
Arrest Teenager in Murder of Dothan Man; Another Suspect Still at Large, AL.COM (Feb. 8, 2012),
http://blog.al.com/montgomery/2012/02/dothan_police_arrest_teenager.html.
13 See Searchable Execution Database, DEATH PENALTY INFORMATION CTR.,
https://deathpenaltyinfo.org/viewsexecutions?exec_name_1=&exec_year%5B%5D=2017&sex=All&sex_1=All&federal=All&foreign
er=All&juvenile=All&volunteer=All&=Apply (last visited Nov. 13, 2017).
14See Atkins v. Virginia, 536 U.S. 306 (2002). The ABA was at the forefront of this movement as
well, passing a resolution against executing persons with intellectual disability in 1989. See ABA
House of Delegates Recommendation 110 (adopted Feb. 1989),

2
App. 038

111
Furthermore, the scientific advances that have shaped our society’s
improved understanding of the human brain would have been unfathomable to
those considering these issues in 1983. In 1990, President George H.W. Bush
launched the “Decade of the Brain” initiative to “enhance public awareness of
benefits to be derived from brain research.” 15 Advances in neuroimaging
techniques now allow researchers to evaluate a living human brain. 16 Indeed,
neuroscience “had not played any part in [U.S. Supreme Court] decisions about
developmental differences between adolescents and adults,” likely due to “how
little published research there was on adolescent brain development before
2000.” 17 These and other large-scale advances in the understanding of the
human brain, have led to the current medical recognition that brain systems and
structures are still developing into an individual’s mid-twenties.
It is now both appropriate and necessary to address the issue of late
adolescence and the death penalty because of the overwhelming legal, scientific,
and societal changes of the last three decades. The newly-understood
similarities between juvenile and late adolescent brains, as well as the evolution
of death penalty law and relevant standards under the Eighth Amendment lead to
the clear conclusion that individuals in late adolescence should be exempted
from capital punishment. 18 Capital defense attorneys are increasingly making this
constitutional claim in death penalty litigation and this topic has become part of
ongoing juvenile and criminal justice policy reform conversations around the
country. As the ABA is a leader in protecting the rights of the vulnerable and
ensuring that our justice system is fair, it is therefore incumbent upon this
organization to recognize the need for heightened protections for an additional
group of individuals: offenders whose crimes occurred while they were 21 years
old or younger.

http://www.americanbar.org/content/dam/aba/migrated/2011_build/death_penalty_moratorium/me
ntal_retardation_exemption0289.authcheckdam.pdf; see also Kennedy v. Louisiana, 554 U.S.
407, 413 (2008) (holding that the Eighth Amendment prohibits execution for crime of child rape,
when victim does not die and death was not intended).
15 Project on the Decade of the Brain, LIBR. OF CONGRESS, http://www.loc.gov/loc/brain/ (last
visited Oct. 6, 2017).
16 B.J. Casey, Imaging the Developing Brain: What Have We Learned About Cognitive
Development?, 9 TRENDS IN COGNITIVE SCI. 104,104-10 (2005).
17 Laurence Steinberg, The Influence of Neuroscience on US Supreme Court Decisions about
Adolescents’ criminal Culpability, 14 NATURE REVIEWS NEUROSCIENCE 513, 513-14 (2013).
18 Earlier this year, a Kentucky Circuit Court held pre-trial evidentiary hearings in three cases and
found that it is unconstitutional to sentence to death individuals “under twenty-one (21) years of
age at the time of their offense.”See Commonwealth v. Bredhold, Order Declaring Kentucky’s
Death Penalty Statute as Unconstitutional, 14-CR-161, *1, 12 (Fayette Circuit Court, Aug. 1,
2017); Commonwealth v. Smith, Order Declaring Kentucky’s Death Penalty Statute as
Unconstitutional, 15-CR-584-002, *1, 12 (Fayette Circuit Court, Sept. 6, 2017); Commonwealth v.
Diaz, Order Declaring Kentucky’s Death Penalty Statute as Unconstitutional, 15-CR-584-001, *1,
11 (Fayette Circuit Court, Sept. 6, 2017).).

3
App. 039

111
Major Constitutional Developments in the Punishment of Juveniles for
Serious Crimes
The rule that constitutional standards must calibrate for youth status is
well established. The U.S. Supreme Court has long recognized that legal
standards developed for adults cannot be uncritically applied to children and
youth. 19 Although “neither the Fourteenth Amendment nor the Bill of Rights is for
adults alone,” 20 the Court has held that “the Constitution does not mandate
elimination of all differences in the treatment of juveniles.” 21
As noted above, between 2005 and 2016, the U.S. Supreme Court issued
several landmark decisions that profoundly alter the status and treatment of
youth in the justice system. 22 Construing the Eighth Amendment, the Court held
in Roper v. Simmons that juveniles are sufficiently less blameworthy than adults,
such that the application of different sentencing principles is required under the
Eighth Amendment, even in cases of capital murder. 23 In Graham v. Florida, the
Court, seeing no meaningful distinction between a sentence of death or LWOP,
found that the Eighth Amendment categorically prohibited LWOP sentences for
non-homicide crimes for juveniles. 24
Then, in Miller v. Alabama, the U.S. Supreme Court held “that the Eighth
Amendment forbids a sentencing scheme that mandates life in prison without the
possibility of parole for juvenile offenders.”25 Justice Kagan, writing for the
majority, was explicit in articulating the Court’s rationale: the mandatory
imposition of LWOP sentences “prevents those meting out punishment from
considering a juvenile’s ‘lessened culpability ‘and greater ‘capacity for
change,’26 and runs afoul of our cases ‘requirement of individualized sentencing
for defendants facing the most serious penalties.’” 27 The Court grounded its
holding “not only on common sense...but on science and social science as

19

See, e.g., May v. Anderson, 345 U.S. 528, 536 (1953) (“Children have a very special place in
life which law should reflect. Legal theories and their phrasing in other cases readily lead to
fallacious reasoning if uncritically transferred to determination of a State ‘s duty towards
children.”); Haley v. Ohio, 332 U.S. 596, 599 (1948) (plurality opinion) (“[A child] cannot be judged
by the more exacting standards of maturity.”).
20 In re Gault, 387 U.S. 1, 13 (1967).
21 Schall v. Martin, 467 U.S. 253, 263 (1984) (citing McKeiver v. Pennsylvania, 403 U.S. 528
(1971)) (holding that juveniles have no right to jury trial).
22 Apart from the sentencing decisions discussed herein, the Court, interpreting the Fifth and
Fourteenth Amendments, held in J.D.B. v. North Carolina, that a juvenile‘s age is relevant to the
Miranda custody analysis. 564 U.S. 261, 264 (2011). In all of these cases, the Court adopted
settled research regarding adolescent development and required the consideration of the
attributes of youth when applying constitutional protections to juvenile offenders.
23 543 U.S. 551, 570-71 (2005).
24 560 U.S. 48, 74 (2010).
25 567 U.S. 460, 479 (2012).
26Miller v. Alabama, 567 U.S. 460, 465 (2012) (citing Graham v. Florida, 560 U.S. 48, 68, 74
(2010)).
27 Miller, 567 U.S. at 480.

4
App. 040

111
well,” 28 all of which demonstrate fundamental differences between juveniles and
adults.
The Court in Miller noted the scientific “findings – of transient rashness,
proclivity for risk, and inability to assess consequences – both lessened a child’s
‘moral culpability’ and enhanced the prospect that, as the years go by and
neurological development occurs, his ‘deficiencies will be reformed.’” 29
Importantly, the Court specifically found that none of what Graham “said about
children – about their distinctive (and transitory) mental traits and environmental
vulnerabilities – is crime-specific.” 30 Relying on Graham, Roper, and other
previous decisions on individualized sentencing, the Court held “that in imposing
a State’s harshest penalties, a sentencer misses too much if he treats every child
as an adult.” 31 The Court also emphasized that a young offender’s moral failings
could not be comparable to an adult’s because there is a stronger possibility of
rehabilitation. 32
In 2016, the U.S. Supreme Court in Montgomery v. Louisiana
expanded its analysis of the predicate factors that the sentencing court must
find before imposing a life without parole sentence on a juvenile. 33
Montgomery explained that the Court’s decision in Miller “did bar life without
parole . . . for all but the rarest of juvenile offenders, those whose crimes
reflect permanent incorrigibility. 34 The Court held “that Miller drew a line
between children whose crimes reflect transient immaturity and those rare
children whose crimes reflect irreparable corruption,” noting that a life without
parole sentence “could [only] be a proportionate sentence for the latter kind of
juvenile offender.”35
Collectively, these decisions demonstrate a distinct Eighth Amendment
analysis for youth, premised on the simple fact that young people are different for
the purposes of criminal law and sentencing practices. Relying on prevailing
developmental research and common human experience concerning the
transitions that define adolescence, the Court has recognized that the age and
special characteristics of young offenders play a critical role in assessing whether
sentences imposed on them are disproportionate under the Eighth
Amendment. 36 More specifically, the cases recognize three key characteristics
that distinguish adolescents from adults: “[a]s compared to adults, juveniles have
a ‘lack of maturity and an underdeveloped sense of responsibility’; they ‘are more

28

Id. at 471.
Id. at 472 (quoting Graham,560 U.S. at 68; Roper, 543 U.S. at 570).
30 Id. at 473.
31 Id.at 477.
32 Miller 567 U.S. at 471 (citing Roper, 543 U.S. at 570).
33 Montgomery v. Louisiana, 577 U.S. __, 136 S. Ct. 7 1 8 (2016).
34 Id. at 734 (emphasis added).
35 Id. (emphasis added).
36 See Graham, 560 U.S. at 68; see also Miller, 567 U.S. at 471-72.
29

5
App. 041

111
vulnerable or susceptible to negative influences and outside pressures, including
peer pressure’; and their characters are ‘not as well formed.’”37
As both the majority and the dissent agreed in Roper and Graham, the
U.S. Supreme Court has supplanted its “death is different” analysis in adult
Eighth Amendment cases for an offender-focused “kids are different” frame in
serious criminal cases involving young defendants. 38 Indeed, in Graham v.
Florida, the Court wrote “criminal procedure laws that fail to take defendants’
‘youthfulness into account at all would be flawed.” 39
Increased Understanding of Adolescent Brain Development
American courts, including the U.S. Supreme Court, have increasingly
relied on and cited to a comprehensive body of research on adolescent
development in its opinions examining youth sentencing, capability, and
custody. 40 The empirical research shows that most delinquent conduct during
adolescence involves risk-taking behavior that is part of normative developmental
processes. 41 The U.S. Supreme Court in Roper v. Simmons recognized that
these normative developmental behaviors generally lessen as youth mature and
become less likely to reoffend as a direct result of the maturational process. 42 In
Miller and Graham, the Court also recognized that this maturational process is a
direct function of brain growth, citing research showing that the frontal lobe,
home to key components of circuitry underlying “executive functions” such as
planning, working memory, and impulse control, is among the last areas of the
brain to mature. 43
In the years since Roper, research has consistently shown that such
development actually continues beyond the age of 18. Indeed, the line drawn by
the U.S. Supreme Court no longer fully reflects the state of the science on
adolescent development. While there were findings that pointed to this
conclusion prior to 2005, 44 a wide body of research has since provided us with an
37

Miller, 567 U.S. at 471 (citing Roper, 543 U.S. at 569-70).
See Graham v. Florida, 560 U.S. 48, 102-103 (2010) (Thomas, J., dissenting); Roper v.
Simmons, 543 U.S. 551, 588-89 (2005) (O’Connor, J., dissenting).
39 560 U.S. at 76.
40 See, e.g., Roper v. Simmons, 543 U.S. 551, 569-70 (2005); Graham v. Florida, 560 U.S 48, 68
(2010); Miller v. Alabama, 567 U.S. 460, 471-73 (2012).
41 NAT’L RESEARCH COUNCIL, JUVENILE CRIME, JUVENILE JUSTICE 66-74 (Joan McCord et al. eds.,
National Academy Press 2001).
42 See Roper, 543 U.S. at 570-71; see also NAT’L RESEARCH COUNCIL, REFORMING JUVENILE
JUSTICE: A DEVELOPMENTAL APPROACH 91 (Richard J. Bonnie et al. eds., Nat’l Acad. Press, 2013).
43 See Miller v. Alabama, 567 U.S. 460, 472 (2012); Graham v. Florida, 560 U.S. 48, 68 (2010).
44 See, e.g., Graham Bradley & Karen Wildman, Psychosocial Predictors of Emerging Adults’
Risk and Reckless Behaviors, 31 J. YOUTH & ADOLESCENCE 253, 253–54, 263 (2002) (explaining
that, among emerging adults in the 18-to-25-year-old age group, reckless behaviors—defined as
those actions that are not socially approved–were found to be reliably predicted by antisocial peer
pressure and stating that “antisocial peer pressure appears to be a continuing, and perhaps
critical, influence upon [reckless] behaviors well into the emerging adult years”); see
also Laurence Steinberg & Elizabeth S. Scott, Less Guilty by Reason of Adolescence, 58 AM.
38

6
App. 042

111
expanded understanding of behavioral and psychological tendencies of 18 to 21
year olds. 45
Findings demonstrate that 18 to 21 year olds have a diminished capacity
to understand the consequences of their actions and control their behavior in
ways similar to youth under 18. 46 Additionally, research suggests that late
adolescents, like juveniles, are more prone to risk-taking and that they act more
impulsively than older adults in ways that likely influence their criminal conduct. 47
According to one of the studies conducted by Dr. Laurence Steinberg, a leading
adolescent development expert, 18 to 21 year olds are not fully mature enough to
anticipate future consequences. 48
More recent research shows that profound neurodevelopmental growth
continues even into a person’s mid to late twenties. 49 A widely-cited longitudinal
PSYCHOLOGIST 1009, 1013, 1016 (2003) (“[T]he results of studies using paper-and-pencil
measures of future orientation, impulsivity, and susceptibility to peer pressure point in the same
direction as the neurobiological evidence, namely, that brain systems implicated in planning,
judgment, impulse control, and decision making continue to mature into late adolescence. . . .
Some of the relevant abilities (e.g., logical reasoning) may reach adult-like levels in middle
adolescence, whereas others (e.g., the ability to resist peer influence or think through the future
consequences of one’s actions) may not become fully mature until young adulthood.”).
45 See Melissa S. Caulum, Postadolescent Brain Development: A Disconnect Between
Neuroscience, Emerging Adults, and the Corrections System, 2007 W IS. L. REV. 729, 731 (2007)
(“When a highly impressionable emerging adult is placed in a social environment composed of
adult offenders, this environment may affect the individual’s future behavior and structural brain
development.”) (citing Craig M. Bennett & Abigail A. Baird, Anatomical Changes in Emerging
Adult Brain: A Voxel-Based Morphometry Study, 27 HUM. BRAIN MAPPING 766, 766–67 (2006));
Damien A. Fair et al., Functional Brain Networks Develop From a "Local to Distributed"
Organization, 5 PLOS COMPUTATIONAL BIOLOGY 1-14 (2009); Margo Gardner & Laurence
Steinberg, Peer Influence on Risk Taking, Risk Preference, and Risky Decision Making in
Adolescence and Adulthood: An Experimental Study, 41 DEV. PSYCHOL. 625, 626, 632, 634
(2005) (examining a sample of 306 individuals in 3 age groups—adolescents (13-16), youths
(18-22), and adults (24 and older) and explaining that “although the sample as a whole took more
risks and made more risky decisions in groups than when alone, this effect was more pronounced
during middle and late adolescence than during adulthood” and that “the presence of peers
makes adolescents and youth, but not adults, more likely to take risks and more likely to make
risky decisions”); Laurence Steinberg, A Social Neuroscience Perspective on Adolescent RiskTaking, 28 DEVELOPMENTAL REV. 78, 91 (2008) (noting that “the presence of friends doubled risktaking among the adolescents, increased it by fifty percent among the youths, but had no effect
on the adults”).
46 See Jeffrey Arnett, Reckless Behavior in Adolescence: A Developmental Perspective, 12
DEVELOPMENTAL REV. 339, 343 (1992); Kathryn L. Modecki, Addressing Gaps in the Maturity of
Judgment Literature: Age Differences and Delinquency, 32 L. & HUM. BEHAV. 78, 79 (2008) (“In
general, the age curve shows crime rates escalating rapidly between ages 14 and 15, topping out
between ages 16 and 20, and promptly deescalating.”).
47 See Elizabeth S. Scott et al., Young Adulthood as a Transitional Legal Category: Science,
Social Change, and Justice Policy, 85 FORDHAM L. REV. 641, 644 (2016).
48 Laurence Steinberg et al., Age Differences in Future Orientation and Delay Discounting, 80
CHILD DEV. 28, 35 (2009).
49 See Christian Beaulieu & Catherine Lebel, Longitudinal Development of Human Brain Wiring
Continues from Childhood into Adulthood, 27 J. OF NEUROSCIENCE 31 (2011); Adolf Pfefferbaum et
al., Variation in Longitudinal Trajectories of Regional Brain Volumes of Healthy Men and Women

7
App. 043

111
study sponsored by the National Institute of Mental Health tracked the brain
development of 5,000 children, discovering that their brains were not fully mature
until at least 25 years of age. 50 This period of development significantly impacts
an adolescent’s ability to delay gratification and understand the long-term
consequences of their actions. 51
Additionally, research has shown that youth are more likely than adult
offenders to be wrongfully convicted of a crime. 52 Specifically, an analysis of
known wrongful conviction cases found that individuals under the age of 25 are
responsible for 63 percent of false confessions. 53 Late adolescents’ propensity
for false confessions, combined with the existing brain development research,
supports the conclusion that late adolescents are a vulnerable group in need of
additional protection in the criminal justice system. 54
Legislative Developments in the Legal Treatment of Individuals in Late
Adolescence
The trend of treating individuals in late adolescence differently from adults
goes well beyond the appropriate punishment in homicide cases. As noted,
scientists, researchers, practitioners and corrections professionals are all now
recognizing that individuals in late adolescence are developmentally closer to
their peers under 18 than to those adults who are fully neurologically developed.
In response to that understanding, both state and federal legislators have created
greater restrictions and protections for late adolescents in a range of areas of
law.
For example, in 1984, the U.S. Congress passed the National Minimum
Drinking Age Act, which incentivized states to set their legal age for alcohol
purchases at age 21. 55 Since then, five states (California, Hawaii, New Jersey,
Maine, and Oregon) have also raised the legal age to purchase cigarettes to age
21. 56 In addition to restrictions on purchases, many car rental companies have
(Ages 0 to 85 Years) Measures with Atlas-Based Parcellation of MRI, 65 NEUROIMAGE 176. 176193 (2013).
50 Nico U. F. Dosenbach et al., Prediction of Individual Brain Maturity Using fMRI, 329 SCI. 1358,
1358–59 (2010).
51 See Laurence Steinberg et al., Age Differences in Future Orientation and Delay Discounting,
80 CHILD DEV. 28, 28 (2009).
52 Understand the Problem, BLUHM LEGAL CLINIC W RONGFUL CONVICTIONS OF YOUTH,
http://www.law.northwestern.edu/legalclinic/wrongfulconvictionsyouth/understandproblem/ (last
visited Nov. 10, 2017).
53 Steven A. Drizin & Richard A. Leo, The Problem of False Confessions in the Post-DNA World,
82 N.C. L. Rev. 891, 945 (2004).
54 See Atkins v. Virgina, 536 U.S. 304, 320-21 (2002) (possibility of false confessions enhances
the imposition of the death penalty, despite factors calling for less severe penalty).
55 23 U.S.C. § 158 (1984).
56 Jenni Bergal, Oregon Raises Cigarette-buying age to 21, W ASH. POST, (Aug. 18, 2017),
https://www.washingtonpost.com/national/health-science/oregon-raises-cigarette-buying-age-to21/2017/08/18/83366b7a-811e-11e7-902a-2a9f2d808496_story.html?utm_term=.132d118c0d10.

8
App. 044

111
set minimum rental ages at 20 or 21, with higher rental fees for individuals under
age 25. 57 Under the Free Application for Federal Student Aid (FASFA), the
Federal Government considers individuals under age 23 legal dependents of
their parents. 58 Similarly, the Internal Revenue Service allows students under the
age of 24 to be dependents for tax purposes. 59 The Affordable Care Act also
allows individuals under the age of 26 to remain on their parents’ health
insurance. 60
In the context of child-serving agencies, both the child welfare and
education systems in states across the country now extend their services to
individuals through age 21, recognizing that youth do not reach levels of adult
independence and responsibility at age 18. In fact, 25 states have extended
foster care or state-funded transitional services to late adolescents through the
Fostering Connections to Success and Increasing Adoptions Act of 2008. 61
Under the Individuals with Disabilities Education Act (IDEA), youth and late
adolescents (all of whom IDEA refers to as “children”) with disabilities who have
not earned their traditional diplomas are eligible for services through age 21. 62
Going even further, 31 states allow access to free secondary education for
students 21-years-old or older. 63
Similar policies protect late adolescents in both the juvenile and adult
criminal justice systems. Forty-five states allow youth up to age 21 to remain
under the jurisdiction of the juvenile justice system. 64 Nine of those states also
allow individuals 21 years old and older to remain under the juvenile court’s
jurisdiction, including four states that have set the maximum jurisdictional age at
24. 65 A number of states have created special statuses, often called “Youthful
57

See, e.g., What are Your Age Requirements for Renting in the US and Canada,
ENTERPRISE.COM, https://www.enterprise.com/en/help/faqs/car-rental-under-25.html (last visited
Oct. 16, 2017); Restrictions and Surcharges for Renters Under 25 Years of Age, BUDGET.COM,
https://www.budget.com/budgetWeb/html/en/common/agePopUp.html (last visited Oct. 16, 2017);
Under 25 Car Rental, HERTZ.COM,
https://www.hertz.com/rentacar/misc/index.jsp?targetPage=Hertz_Renting_to_Drivers_Under_25.
jsp (last visited Oct. 16, 2017).
58 See Dependancy Status, FEDERAL STUDENT AID, https://studentaid.ed.gov/sa/fafsa/fillingout/dependency (last visited Sept. 21, 2017).
59 See Dependants and Exemptions 7, I.R.S, https://www.irs.gov/faqs/filing-requirements-statusdependents-exemptions/dependents-exemptions/dependents-exemptions-7 (last visited Sept. 21,
2017); 26 U.S.C. § 152 (2008).
60 42 U.S.C. § 300gg-14 (2017).
61 See Extending Foster Care to 18, NAT’L CONFERENCE OF STATE LEGISLATURES (July 28, 2017),
http://www.ncsl.org/research/human-services/extending-foster-care-to-18.aspx.
62 20 U.S.C. § 1412 (a)(1)(A) (2017).
63 Compulsory School Attendance Laws, Minimum and Maximum Age Limits for Required Free
Education, by State: 2015, NAT’L CTR. FOR EDUC. STAT.,
https://nces.ed.gov/programs/statereform/tab5_1.asp.
64 Jurisdictional Boundaries, Juvenile Justice Geography, Policy, Practice & Statistics, NAT’L CTR.
FOR JUV. JUST.,http://www.jjgps.org/jurisdictional-boundaries#delinquency-ageboundaries?year=2016&ageGroup=3 (last visited Nov. 8, 2017).
65 Id.

9
App. 045

111
Offender” or “Serious Offender” status that allows individuals in late adolescence
to benefit from similar protections to the juvenile justice system, specifically
related to the confidentiality of their proceedings and record sealing. 66
For example, in 2017, the Vermont legislature changed the definition of a
child for purposes of juvenile delinquency proceedings in the state to an
individual who “has committed an act of delinquency after becoming 10 years of
age and prior to becoming 22 years of age.”67 This change affords late
adolescents access to the treatment and other service options generally
associated with juvenile proceedings. 68 In 2017, Connecticut, Illinois, and
Massachusetts legislators were considering similar efforts to provide greater
protections to young adults beyond the age of 18. 69 Notably, even when late
adolescents enter the adult criminal justice system, some states have created
separate correctional housing and programming for individuals under 25. 70
Furthermore, several European countries maintain similarly broad
approaches to treatment of late adolescents who commit crimes. In countries like
England, Finland, France, Germany, Italy, Sweden, and Switzerland, late
adolescence is a mitigating factor either in statute or in practice that allows many
18 to 21 year olds to receive similar sentences and correctional housing to their
peers under 18. 71
There has thus been a consistent trend toward extending the services of
traditional child-serving agencies, including the child welfare, education, and
juvenile justice systems, to individuals over the age of 18. These various laws
and policies, designed to both restrict and protect individuals in this late
adolescent age group, reflect our society’s evolving view of the maturity and
culpability of 18 to 21 year olds, and beyond. Virtually all of these important
reforms have come after 1983, when the ABA first passed its policy concerning
the age at which individuals should be exempt from the death penalty.
66

See FLA. STAT. § 958.04 (2017) (under 21); D.C. CODE § 24-901 et seq. (2017) (under 22); S.C.
CODE ANN. § 24-19-10 et seq. (2017) (under 25); see also 33 V.S.A § 5102, 5103 (2017) (under
22).
67 The legislature made this change in 2017 in order to make Vermont law consistent, as it had
also expanded its Youthful Offender Status in 2016 so that 18-to-21-year-olds would be able to
have their cases heard in the juvenile court versus the adult court. See H. 95, 2016 Leg., Reg.
Sess. (Vt. 2016); S. 23, 2017 Leg., Reg. Sess. (Vt. 2017).
68 Id.
69 See H.B. 7045, 2017 Gen. Assemb., Reg. Sess. (Conn. 2017); H.B. 6308, 100th Gen.
Assemb., Reg. Sess. (Ill. 2017); H. 3037, 190th Gen. Ct., Reg. Sess. (Mass. 2017).
70 See S.C. CODE Ann. § 24-19-10; H. 95, 2016 Leg., Reg. Sess. (Vt. 2016); Division of Juvenile
Justice, CAL. DEP’T OF CORR. & REHAB., http://www.cdcr.ca.gov/Juvenile_Justice/ (last visited on
Oct. 16, 2017); Oregon Youth Authority Facility Services, OR. YOUTH AUTH.,
http://www.oregon.gov/oya/pages/facility_services.aspx#About_OYA_Facilities (last visited on
Oct. 18, 2017), Christopher Keating, Connecticut to Open Prison for 18-to-25 Year Olds,
HARTFORD COURANT (Dec. 17, 2015), http://www.courant.com/news/connecticut/hc-connecticutprison-young-inmates-1218-20151217-story.html.
71Ineke Pruin & Frieder Dunkel, TRANSITION TO ADULTHOOD & UNIV. OF GREIFSWALD, BETTER IN
EUROPE? EUROPEAN RESPONSES TO YOUNG ADULT OFFENDING: EXECUTIVE SUMMARY 8-10 (2015).

10
App. 046

111
Purposes Served by Executing Individuals in Late Adolescence
Regardless of whether one considers the death penalty an appropriate
punishment for the worst murders committed by the worst offenders, it has
become clear that the death penalty is indefensible as a response to crimes
committed by those in late adolescence. As discussed in this report, a growing
body of scientific understanding and a corresponding evolution in our standards
of decency undermine the traditional penological purposes of executing
defendants who committed a capital murder between the ages of 18 and 21. Just
as the ABA has done when adopting earlier policies, we must consider the
propriety of the most common penological justifications for the death penalty:
“retribution and deterrence of capital crimes by prospective offenders.” 72
Capital punishment does not effectively or fairly advance the goal of
retribution within the context of offenders in late adolescence. Indeed, the Eighth
Amendment demands that punishments be proportional and personalized to both
the offense and the offender. 73 Thus, to be in furtherance of the goal of
retribution, those sentenced to death – the most severe and irrevocable sanction
available to the state – should be the most blameworthy defendants who have
also committed the worst crimes in our society. As has been extensively
discussed above, contemporary neuroscientific research demonstrates that
several relevant characteristics typify late adolescents’ developmental stage,
including: 1) a lack of maturity and an underdeveloped sense of responsibility, 2)
increased susceptibility to negative influences, emotional states, and social
pressures, and 3) underdeveloped and highly fluid character. 74
The U.S. Supreme Court’s holdings in Roper and Atkins were based on
the findings that society had redrawn the lines for who is the most culpable or
“worst of the worst.” Similarly, the scientific advancements and legal reforms
discussed above support the ABA’s determination that there is an evolving moral
consensus that late adolescents share a lesser moral culpability with their
teenage counterparts. If “the culpability of the average murderer is insufficient to
justify the most extreme sanction available to the state”, then the lesser
culpability of those in late adolescence surely cannot justify such a form of
retribution. 75
72

Roper, 543 U.S. at 553.
Graham v. Florida, 560 U.S. 48, 59 (2010) (citing Weems v. United States, 217 U.S. 349, 367
(1910)).
74 See Commonwealth v. Bredhold, Order Declaring Kentucky’s Death Penalty Statute as
Unconstitutional, 14-CR-161, *1, 7-8 (Fayette Circuit Court, Aug. 1, 2017) (After expert testimony
and briefing based on contemporary science, the court made specific factual findings that
individuals in late adolescence are more likely to underestimate risks; more likely to engage in
“sensation seeking;” less able to control their impulses; less emotionally developed than
intellectually developed; and more influenced by their peers than adults. It then held that, based
on those traits and other reasons, those individuals should be exempt from capital puninshment.)
75 See Atkins v. Virginia, 536 U.S. 304, 319 (2002).
73

11
App. 047

111
Second, there is insufficient evidence to support the proposition that the
death penalty is an effective deterrent to capital murder for individuals in late
adolescence. In fact, there is no consensus in either the social science or legal
communities about whether there is any general deterrent effect of the death
penalty. 76 Even with the most generous assumption that the death penalty may
have some deterrent effect for adults without any cognitive or mental health
disability, it does not necessarily follow that it would similarly deter a juvenile or
late adolescent. Scientific findings suggest that late adolescents are, in this
respect, more similar to juveniles. 77 As noted earlier, late adolescence is a
developmental period marked by risk-taking and sensation-seeking behavior, as
well as a diminished capacity to perform rational, long-term cost-benefit
analyses. The same cognitive and behavioral capacities that make those in late
adolescence less morally culpable for their acts also “make it less likely that they
can process the information of the possibility of execution as a penalty and, as a
result, control their conduct based upon that information.” 78
Finally, both the death penalty and LWOP effectively serve the additional
penological goal of incapacitation, as either sentence will prevent that individual
from release into general society to commit any future crimes. However, only the
death penalty completely rejects the goal of providing some opportunity for
redemption or rehabilitation for a young offender. Ninety percent of violent
juvenile and late adolescent offenders do not go on to reoffend later in life. 79
Thus, many of these individuals can and will serve their sentences without
additional violence, even inside prison, and will surely mature and change as
they reach full adulthood. Imposing a death sentence and otherwise giving up on
adolescents, precluding their possible rehabilitation or any future positive
contributions (even if only made during their years of incarceration), is antithetical
to the fundamental principles of our justice system.
Conclusion
In the decades since the ABA adopted its policy opposing capital
punishment for individuals under the age of 18, legal, scientific and societial
developments strip the continued application of the death penalty against
76 John J. Donohue & Justin Wolfers, Uses and Abuses of Empirical Evidence in the Death
Penalty Debate, 58 STAN. L. REV. 791, 843 (2005).
77 James C. Howell et al., Young Offenders and an Effective Response in the Juvenile and Adult
Justice Systems: What Happens, What Should Happen, and What We Need to Know, NAT’L INST.
OF JUST. STUDY GROUP ON THE TRANSITIONS BETWEEN JUV. DELINQ. AND ADULT CRIME, at Bulletin 5,
24 (2013).
78 Atkins, 536 U.S. at 320.
79 Kathryn Monahan et al., Psychosocial (im)maturity from Adolescence to Early Adulthood:
Distinguishing Between Adolescence-Limited and Persistent Antisocial Behavior, 25 DEV. &
PSYCHOPATHOLOGY 1093, 1093-1105 (2013); Edward Mulvey et al., Trajectories of Desistance
and Continuity in Antisocial Behavior Following Court Adjudication Among Serious Adolescent
Offenders, 22 DEV. & PSYCHOPATHOLOGY 453,453-75 (2010).

12
App. 048

111
individuals in late adolescence of its moral or constitutional justification. The
rationale supporting the bans on executing either juveniles, as advanced in
Roper v. Simmons, or individuals with intellectual disabilities, as set forth in
Atkins v. Virginia, also apply to offenders who are 21 years old or younger when
they commit their crimes. Thus, this policy proposes a practical limitation based
on age that is supported by science, tracks many other areas of our civil and
criminal law, and will succeed in making the administration of the death penalty
fairer and more proportional to both the crimes and the offenders.
In adopting this revised position, the ABA still acknowledges the need to
impose serious and severe punishment on these individuals when they take the
life of another person. Yet at the same time, this policy makes clear our
recognition that individuals in late adolescence, in light of their ongoing
neurological development, are not among the worst of the worst offenders, for
whom the death penalty must be reserved.
Respectfully submitted,
Seth Miller
Chair, Death Penalty Due
Process Review Project
Robert Weiner
Chair, Section of Civil Rights and
Social Justice
February, 2018

13
App. 049

111
GENERAL INFORMATION FORM
Submitting Entities: Death Penalty Due Process Review Project, with Co-sponsor:
Section of Civil Rights and Social Justice
Submitted By: Seth Miller, Chair, Steering Committee, Death Penalty Due Process
Review Project; Robert N. Weiner, Chair, Section of Civil Rights and Social Justice.
1. Summary of Resolution.
This resolution urges each death penalty jurisdiction to not execute or sentence to death
anyone who was 21 years old or younger at the time of the offense. Without taking a
position supporting or opposing the death penalty, this recommendation fully comports
with the ABA’s longstanding position that states should administer the death penalty
only when performed in accordance with constitutional principles of fairness and
proportionality. Because the Eighth Amendment demands that states impose death only
as a response to the most serious crimes committed by the most heinous offenders, this
resolution calls on jurisdictions to extend existing constitutional protections for capital
defendants under the age of 18 to offenders up to and including the age of 21.
2. Approval by Submitting Entity.
Yes. The Steering Committee of the Death Penalty Due Process Review Project
approved the Resolution on October 26, 2017 via written vote. The Council of the
Section of Civil Rights and Social Justice approved the Recommendation at the
Section’s Fall Meeting in Washington, D.C on October 27, 2017, and agreed to be a cosponsor.
3. Has this or a similar resolution been submitted to the House or Board previously?
No.
4.

What existing Association policies are relevant to this Resolution and how would
they be affected by its adoption?

The ABA has existing policy that pertains to the imposition of capital punishment on
young offenders under the age of 18; this new policy, if adopted, would effectively
supercede that policy and extend our position to individuals age 21 and under.
Specifically, at the 1983 Annual Meeting, the House of Delegates adopted the position
“that the American Bar Association opposes, in principle, the imposition of capital
punishment upon any person for any offense committee while under the age of 18.” 80

80

ABA House of Delegates Recommendation 117A, (adopted Aug. 1983),
http://www.americanbar.org/content/dam/aba/migrated/2011_build/death_penalty_moratorium/juvenile_of
fenders_death_penalty0883.authcheckdam.pdf.

14
App. 050

111
5. If this is a late report, what urgency exists which requires action at this meeting of
the House?
N/A.
6. Status of Legislation.
N/A. There is no known relevant legislation pending in Congress or in state legislatures.
However, several states have passed laws in recent years extending juvenile
protections to persons older than 18 years of age, including, for example, allowing youth
under 21 to remain under the jurisdiction of the juvenile justice system. Additionally, this
is an issue being raised more frequently in capital case litigation.
7.

Brief explanation regarding plans for implementation of the policy, if adopted by the
House of Delegates.

If this recommendation and resolution are approved by the House of Delegates, the
sponsors will use this policy to enable the leadership, members and staff of the ABA to
engage in active and ongoing policy discussions on this issue, to respond to possible
state legislation introduced in 2018 and beyond, and to participate as amicus curiae, if a
case reaches the U.S. Supreme Court with relevant claims. The sponsors will also use
the policy to consult on issues related to the imposition of the death penalty on
vulnerable defendants generally, and youthful offenders specifically, when called upon
to do so by judges, lawyers, government entities, and bar associations.
8. Cost to the Association. (Both direct and indirect costs)
None.
9. Disclosure of Interest. (If applicable)
N/A.
10. Referrals.
This Resolution has been referred to the following ABA entities that may have an interest
in the subject matter:
Center for Human Rights
Center on Children and the Law
Coalition on Racial and Ethnic Justice
Commission on Youth at Risk
Criminal Justice Section
Death Penalty Representation Project
Judicial Division
Law Student Division
15
App. 051

111
Litigation
Section of International Law
Section of State and Local Government Law
Solo, Small Firm and General Practice Division
Standing Committee on Legal Aid and Indigent Defense
Young Lawyers Division
11. Contact Name and Address Information (prior to the meeting)
Aurélie Tabuteau Mangels
Policy Fellow, ABA Death Penalty Due Process Review Project
1050 Connecticut Ave, NW Suite 400
Washington, DC 20036
202-442-3451
Aurelie.TabuteauMangels@americanbar.org
Or
Carmen Daugherty
Co-Chair, CRSJ Criminal Justice Committee
(202) 809-4264
carmen.daugherty@gmail.com
12. Contact Name and Address Information. (Who will present the report to the
House?)
Walter White, CRSJ Section Delegate
McGuire Woods LLP
11 Pilgrim Street
London EC4V 6RN, United Kingdom
202-857-1707
wwhite@mcguirewoods.com
or
Estelle H. Rogers, CRSJ Section Delegate
111 Marigold Ln
Forestville, CA 95436-9321
(202) 337-3332
1estellerogers@gmail.com

16
App. 052

111
EXECUTIVE SUMMARY
1.

Summary of the Resolution

This resolution urges each death penalty jurisdiction to not execute or sentence to death
anyone who was 21 years old or younger at the time of the offense.
2.

Summary of the Issue that the Resolution Addresses

This resolution addresses the practice of sentencing to death and executing young
persons ages 21 and under. The resolution clarifies that the ABA’s long-standing
position on capital punishment further necessitates that jurisdictions categorically
exempt offenders ages 21 and under from capital punishment due to the lessened
moral culpability, immaturity, and capacity for rehabilitation exemplified in late
adolescence.
3.

Please Explain How the Proposed Policy Position Will Address the Issue

The resolution aims to accomplish this goal by consulting on issues related to young
offenders and the death penalty when called upon to do so by judges, lawyers,
government entities, and bar associations, by supporting the filing of amicus briefs in
cases that present issues of youthfulness and capital punishment, and by conducting
and publicizing reports of jurisdictional practices vis-à-vis the imposition of death on late
adolescent offenders for public information and use in the media and advocacy
communities.
4.

Summary of Minority Views or Opposition Internal and/or External to the ABA
Which Have Been Identified

None.

17
App. 053

